HHS/OIG - Audit,"Review of Compensation for Personnel Services Claimed By The Administracion De Familias Y Ninos To The Head Start Program for the Period March 1, 1998 to February 28, 1999,"(A-02-99-02005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Compensation for Personnel Services Claimed By The Administracion De Familias Y Ninos To The Head Start
Program for the Period March 1, 1998 to February 28, 1999," (A-02-99-02005)
February 4, 2002
Complete
Text of Report is available in PDF format (5.1 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that Administracion De Familias Y Ninos' (ADFAN) practice of charging the cost of support services
employees arbitrarily to the Head Start Program (HSP) and all other programs it administered is not appropriate.  Federal
regulations require that these costs be allocated to benefiting programs.  Consequently, we came up with a reasonable
basis for allocating the cost of all ADFAN support service employees to the HSP and all other programs.  The majority
of the programs affected by the reallocation were administered by the Administration for Children and Families.  The
reallocation resulted in a downward adjustment of $1,182,171 of compensated personnel services charged to the HSP program.  We
also found that ADFAN improperly claimed $39,409 for health insurance and $75,694 for the cost of living adjustments for
support service employees to the HSP.  Lastly, we found that the remaining balance of compensated personnel services
costs claimed for the ADFAN administrative component was allowable, allocable and reasonable.